Case: 20-1150

Document: 00117656679

Page: 1

Date Filed: 10/16/2020

Entry ID: 6374881

United States Court of Appeals
For the First Circuit
No. 20-1150
UNITED STATES,
Appellee,
v.

GERALD J. SILVA,
Defendant - Appellant.

Before
Torruella, Lynch and Thompson,
Circuit Judges.
JUDGMENT
Entered: October 16, 2020
Defendant filed an untimely appeal from the revocation of his supervised release. After
the government moved to dismiss the appeal as untimely, this court appointed counsel for
defendant who argues, among other things, that the district court violated Federal Rule of Criminal
Procedure 32(j) in not advising defendant of his right to appeal. However, "Rule 32 and its various
subparts . . . simply do not apply to sentences imposed for supervised release violations.
Procedures for supervised release revocation sentences are delineated in a separate rule: Federal
Rule of Criminal Procedure 32.1." United States v. Daoust. 888 F.3d 571, 575 (1st Cir. 2018)
(citations omitted). And Rule 32.1 says nothing about advising defendant of his right to appeal.
We note, in addition, that at the time defendant was convicted of receipt and possession of child
pornography, he was advised both of his right to appeal and of the time frame for doing so.
Furthermore, the district court record is replete with references to defendant's right and ability to
appeal an adverse supervised release determination. Finally, the government moved to dismiss
the appeal as untimely, so dismissal is mandatory. See United States v. Reves-Santiago. 804 F.3d
453, 478 (1st Cir. 2015). The appeal is dismissed.
By the Court:
Maria R. Hamilton, Clerk
cc:
David Shaughnessy, Gerald J. Silva, Lauren S. Zurier, Ronald R. Gendron

